                  U.S. ELECTION ASSISTANCE
                         COMMISSION
                 OFFICE OF INSPECTOR GENERAL




                             FINAL REPORT:


                 2008 Election Data Collection Grant Program
                       Award number: 08-EDC-800165
                       Commonwealth of Pennsylvania



                     MAY 27, 2008 THROUGH JUNE 30, 2011




Report No.
E-GR-PA-03-12
September 2013
                                U.S. ELECTION ASSISTANCE COMMISSION
                                       OFFICE OF INSPECTOR GENERAL
                                      1201 New York Ave. NW - Suite 300
                                            Washington, DC 20005


Memorandum

                                                       September 12, 2013


To:	        Alice Miller
            Acting Executive Director

From:	      Curtis W. Crider
            Inspector General

Subject:    Final Performance Audit Report – 2008 Election Data Collection Grant
            Program Award Number: 08-EDC-800165 Commonwealth of Pennsylvania
            (Assignment Number E-GR-PA-03-12)

        We contracted with the independent certified public accounting firm of McBride, Lock
& Associates to conduct the subject audit. The objectives of the audit were to identify costs
claimed in the Grant’s Financial Status Reports that were not allocable, allowable, reasonable,
and in conformity with United States Election Assistance Commission’s award terms and
conditions and applicable Federal grant requirements.

       In its audit, McBride, Lock & Associates concluded that the Secretary of the
Commonwealth accounted for and expended the 2008 Election Data Collection Grant funds in
accordance with applicable requirements for the period from May 27, 2008 through June 30,
2011.

       To fulfill our responsibilities under Government Auditing Standards, the Office of
Inspector General:

         • Reviewed McBride, Lock & Associates’ approach and planning of the audit;

         • Evaluated the qualifications and independence of the auditors;

         • Monitored the progress of the audit at key points;

         • Reviewed the audit report, prepared by McBride, Lock & Associates to ensure
         compliance with Government Auditing Standards; and

         • Coordinated issuance of the audit report.

       McBride, Lock & Associates is responsible for the attached auditor’s report and
the conclusions expressed in the report. We do not express any opinion on the
conclusions presented in McBride, Lock & Associates audit report.
      The legislation creating the Office of Inspector General requires that we report to
Congress semiannually on all audit reports issued, actions taken to implement our
recommendations, and recommendations that have not been implemented.

       If you have any questions regarding this report, please call me at (202) 566-3125.



Attachment


cc: Director of Grants and Payments
       Performance Audit Report


2008 Election Data Collection Grant Program

      Award number: 08-EDC-800165

      Commonwealth of Pennsylvania


    May 27, 2008 through June 30, 2011




               United States

      Election Assistance Commission





                       McBRIDE, LOCK & ASSOCIATES
                                CERTIFIED PUBLIC ACCOUNTANTS
                                                   KANSAS CITY
                          Performance Audit Report

                 2008 Election Data Collection Grant Program

                       Award number: 08-EDC-800165

                       Commonwealth of Pennsylvania


                             TABLE OF CONTENTS


                                                                            Page

EXECUTIVE SUMMARY                                                               1

BACKGROUND                                                                      1

AUDIT OBJECTIVES                                                                2

SCOPE AND METHODOLOGY                                                           3

AUDIT RESULTS                                                                   3

APPENDICES:

  Appendix A-1: Response of the Secretary of the Commonwealth of Pennsylvania
                to the Draft Report
  Appendix A-2: Response of the U.S. Election Assistance Commission
                to the Draft Report
  Appendix B:   Audit Methodology
  Appendix C:   Schedule of Awards as of June 30, 2011
  Appendix D:   Monetary Impact as of June 30, 2011
                       U.S. Election Assistance Commission

                            Performance Audit Report

                   2008 Election Data Collection Grant Programs

                         Award number: 08-EDC-800165

                          Commonwealth of Pennsylvania


EXECUTIVE SUMMARY

McBride, Lock & Associates was engaged by the United States Election Assistance Commission
(EAC) Office of the Inspector General to conduct a performance audit of award 08-EDC­
800165, Election Data Collection Grant (Grant), made to the Office of the Secretary of the
Commonwealth (Office), for the period from inception on May 27, 2008 through the award
conclusion date of June 30, 2011 to determine whether the Office was in compliance with EAC’s
and Federal regulations concerning award administration and management.

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on the audit objectives.

Based on the audit procedures performed, we concluded that the Office accounted for and
expended the Grant funds in accordance with the requirements mentioned above for the period
from May 27, 2008 through June 30, 2011.


BACKGROUND

In December 2007 Congress authorized the fiscal year 2008 Omnibus Appropriations Act
(Public Law 110-161, Title V), which directed the EAC to award grants of $2 million to each of
five eligible states to improve the collection of precinct level data relating to the November 2008
Federal elections. The act provided for the creation of the Election Data Collection Grant
Program, the purpose of which was to:

   •	 Develop and document a series of administrative and procedural best practices in election
      data collection that can be replicated by other States;

   •	 Improve data collection processes;

   •	 Enhance the capacity of States and their jurisdictions to collect accurate and complete
      election data; and

   •	 Document and describe particular administrative and management data collection

      practices, as well as particular data collection policies and procedures.


The States were to use the Grant funds to implement programs to improve the collection of data
relative to the November 2008 Federal general election and to improve the reporting of election

                                                1

   data at the precinct level. The Grants were awarded in May 2008 and were for a period of 13
   months.

   The States were to provide their report on the data collected from the November 2008 election to
   the EAC by March 2009. In turn, the EAC was required to submit, by June 30, 2009, a report
   to Congress on the impact of the Election Data Collection Grant Program on States’ abilities to
   effectively collect Federal Election data. The EAC granted the Office a no-cost extension on the
   grant beyond June 30, 2009, until June 30, 2011.

   In its Performance Reports the Office noted that Phases 1 and 2 were completed prior to June 1,
   2009. Phase 3 involved the development and testing of enhancements to the SURE Portal which
   were to allow full integration of the elections management system. While these efforts began in
   February 2009, they continued throughout the life of the project. The Office requested an
   extension of the grant period for the purpose of completing additional precinct-level survey data
   enhancements.

                                       Data Collection Grant Activity

                                           (a)              (b)            (c)             (d)        (d) - (c) = (e)
                                        Proposed          As of           As of           As of
                                        Amount         June 1, 2009   June 30, 2009   June 30, 2011    Difference
Contractual Services –
  Staff augmentation                   $ 1,360,000     $ 461,574      $   523,214     $   714,481     $    191,267
Software                                   280,000             -              356             356                -
Equipment Maintenance                            -             -                -           7,669            7,669
Other Equipment –
  Noncapitalizable                                 -             -           7,950           7,950                  -
Capital Assets –
  Server hardware and infrastructure      360,000                -               -               -                  -
Total Costs                            $ 2,000,000     $ 461,574      $   531,520     $   730,456     $    198,936


   As of June 30, 2009, the Office had expended $531,520 on the project, or 73 percent of the total
   award expenditures. The Office spent $198,936 subsequent to June 30, 2009, for the purpose of
   completing additional precinct-level survey data enhancements, primarily to complete the survey
   interface and data warehouse projects. In its Final Performance Report for the period ended
   December 31, 2010, the Office reported successful completion of all grant award requirements,
   and did not require $1,239,544 of the authorized $2,000,000 award.


   AUDIT OBJECTIVES

   The objectives of our performance audit were to identify costs claimed in the Grant’s Financial
   Status Reports that are not allocable, allowable, reasonable, and in conformity with EAC award
   terms and conditions and applicable Federal grant requirements. The Office is required to follow
   the requirements of the Grant program’s legislation and program regulations, Grant award terms
   and conditions, Office of Management and Budget (OMB) Circular A-87 (2 CFR 225),
   Cost Principles for State, Local, and Indian Tribal Governments, and OMB Circular A-102 (41 CFR
   105-71), Grants and Cooperative Agreements with State and Local Governments.


                                                        2

SCOPE AND METHODOLOGY

Our audit encompassed the Grant funds received and disbursed by the Office for the period
beginning May 27, 2008 through June 30, 2011 as shown in the following table:

                                Award amount               $ 2,000,000

                                Award funds received       $    730,456
                                Program income                        -
                                Total available            $    730,456

                                Program expenditures       $    730,456

Our audit methodology is set forth in Appendix B.


AUDIT RESULTS

We conducted this performance audit in accordance with Generally Accepted Government
Auditing Standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on the audit objectives.

Based on the audit procedures performed, we concluded that the Office accounted for and
expended the Grant funds in accordance with the requirements mentioned above for the period
from May 27, 2008 through June 30, 2011.

We provided a draft of our report to the appropriate individuals of the Office of the Secretary of
the Commonwealth. We considered any comments received prior to finalizing this report.

The Office responded on August 14, 2013 and generally agreed with the report’s contents. The
EAC responded on August 12, 2013 and noted that the Office has accounted for and expended
funds in accordance with the requirements of the Grant. The Office’s complete response is
included as Appendix A-1 and EAC’s complete response as Appendix A-2.

McBride, Lock & Associates performed the related audit procedures between January 28, 2013
and June 13, 2013.

(Original Signed by McBride, Lock & Associates)

McBride, Lock & Associates
June 13, 2013




                                                3

                                                                               Appendix A-1


                   RESPONSE OF THE SECRETARY OF THE 

  COMMONWEALTH OF PENNSYLVANIA TO THE DRAFT REPORT


There were no findings and questioned costs. Therefore, the Secretary of the Commonwealth
was not required to provide a response.




                                              4

                   EAC RESPONSE TO THE DRAFT AUDIT:
                   OIG Performance Audit Reporl- Election Data Collection
                   Grant Program Award Number: OB-EDC-B00165,
                   Commonwealth of Pennsylvania


August 12, 2013

MEMORANDUM

To:           Curtis Crider
              Inspector General

From: 	      Alice P. Miller, Chi~~o~P1ratin~ Officer,&
             Acting Executive D?:..t~~

Subject: 	   Draft Performance Audit Report - Election Data Collection Grant
             Program Award Number: OB-EDC-B00165, Commonwealth of
             Pennsylvania

Thank you for this opportunity to review and respond to the draft audit report of
the Office of the Secretary of the Commonwealth of Pennsylvania (Office).

The Election Assistance Commission (EAC) notes that the Office has accounted
for and expended funds in accordance with the requirements of the Grant.
                                                                                   Appendix B

                              AUDIT METHODOLOGY


Our audit methodology included:

   •	 Assessing audit risk and significance within the context of the audit objectives.
   •	 Obtaining an understanding of internal controls that are significant to the administration
      of the Grant funds and of relevant information systems controls as applicable.
   •	 Identifying sources of evidence and the amount and type of evidence required.
   •	 Determining whether other auditors have conducted, or are conducting, audits of the
      program that could be relevant to the audit objectives.

To implement our audit methodology, below are some of the audit procedures we performed.

   •	 Interviewed appropriate Office employees about the organization and operations of the
      Grant program.
   •	 Reviewed prior Single Audit reports and other audits related to the State’s financial
      management systems and the Grant program for the period under review.
   •	 Reviewed policies, procedures and regulations for the Office management and
      accounting systems as they relate to the administration of the Grant program.
   •	 Tested payments made with Grant funds and the supporting documentation.
   •	 Evaluated compliance with the requirements for accumulating financial information
      reported to the EAC on the financial status reports and progress reports, Form SF-269
      and SF-PPR, respectively.




                                               6

                                                                 Appendix C

       SCHEDULE OF AWARDS AS OF JUNE 30, 2011



                                                Budget       Actual
Contractual Services - staff augmentation   $   1,360,000   $ 714,481
Software                                          280,000         356
Equipment Maintenance                                 -         7,669
Other Equipment-Noncapitalizable                     -          7,950
Capital Assets-Server Hardware
  and Infrastructure                              360,000         -
  Total Costs                               $   2,000,000   $ 730,456




                                      7

                                                                                  Appendix D

                   MONETARY IMPACT AS OF JUNE 30, 2011
There were no findings or questioned costs and accordingly there is no monetary impact.




                                               8

                      The OIG audit mission is to provide timely, high-quality
                      professional products and services that are useful to OIG’s clients.
                      OIG seeks to provide value through its work, which is designed to
                      enhance the economy, efficiency, and effectiveness in EAC
OIG’s Mission         operations so they work better and cost less in the context of
                      today's declining resources. OIG also seeks to detect and prevent
                      fraud, waste, abuse, and mismanagement in these programs and
                      operations. Products and services include traditional financial and
                      performance audits, contract and grant audits, information systems
                      audits, and evaluations.


                      Copies of OIG reports can be requested by e-mail.
                      (eacoig@eac.gov).

                      Mail orders should be sent to:
Obtaining
Copies of             U.S. Election Assistance Commission
                      Office of Inspector General
OIG Reports
                      1201 New York Ave. NW - Suite 300
                      Washington, DC 20005
                      To order by phone: Voice: (202) 566-3100
                                          Fax: (202) 566-0957


To Report Fraud,      By Mail: 	U.S. Election Assistance Commission
Waste and Abuse                 Office of Inspector General
Involving the U.S.              1201 New York Ave. NW - Suite 300
Election Assistance             Washington, DC 20005
Commission or Help
                      E-mail:   eacoig@eac.gov
America Vote Act
Funds                 OIG Hotline: 866-552-0004 (toll free)

                      FAX: 202-566-0957
